jsantagata@northjerseyattorneys.com

December 30, 2020
VIA E-FILING
Scott Harris, Esq.
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Richardson v. Coverall North America, Inc., 20-763

Dear Mr. Harris:
We represent Respondent Sujol LLC in the above petition. Please enter our
appearance and accept this letter as Respondent’s request for a 30-day extension of
time to file a brief in opposition to the petition pursuant to Supreme Court Rule
30.4. Petitioner’s counsel consents to this request. The opposition is currently due
January 4, 2021; we request a new due date of February 4, 2021
The reasons for the requested extension, in addition to the holidays, are my
competing briefing commitments, which are as follows:
•

Interlocutory appeal at New Jersey Appellate Division in Ferrara v. Oliver,
AM-00234-20/ESX-L-7482-18

•

Order to show cause in New Jersey Superior Court in Goldstein v. Fairmont
Industries, PAS-C-80-20, due December 31, 2020

Letter re extension
Richardson v. Coverall, 18-1372
December 30, 2020
Page 2
•

Opposition to motion to dismiss in New Jersey Federal District Court in
Umdash Real Estate v. Wallington, 2:20-cv-163-46.

Accordingly, we respectfully request an extension of time to file a brief in
opposition to the petition to February 4, 2021.
Respectfully submitted,
/S/
JUSTIN D. SANTAGATA

JDS/bar
cc:
Shannon Liss-Riordan, Esq. (via email/e-filing)
Ravi Sattiraju, Esq. (via email/e-filing)
Coverall North America, Inc. (via email/e-filing)

